No. ______

IN THE

SUPREME COURT OF THE UNITED STATES

JENNIFER MAE LEVIN,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petition for Writ of Certiorari
to the Florida Fifth District Court of Appeal

CERTIFICATE OF COMPLIANCE WITH THE WORD LIMITATIONS

I, Michael Ufferman, member of the Bar of this Court, pursuant to Rule 33.1(h),
hereby certify that the Petition for Writ of Certiorari in the above-entitled case
complies with the applicable word limitation. The number of words in the document
is 5,367.
Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

